<html>
<title> - NOMINATION OF WILLIAM W. NOOTER</title>
<body><pre>[Senate Hearing 113-237]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-237

                    NOMINATION OF WILLIAM W. NOOTER

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             FIRST SESSION

                               __________

NOMINATION OF WILLIAM W. NOOTER TO BE ASSOCIATE JUDGE SUPERIOR COURT OF 
                        THE DISTRICT OF COLUMBIA

                               __________

                            OCTOBER 8, 2013

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                  U.S. GOVERNMENT PRINTING OFFICE

85-501 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota         JEFF CHIESA, New Jersey

                   Richard J. Kessler, Staff Director
               John P. Kilvington, Deputy Staff Director
                  Katherine C. Sybenga, Senior Counsel
Jason R. Bockenstedt, Deputy Staff Director, Subcommittee on Emergency 
 Management, Intergovernmental Relations, and the District of Columbia
            Deirdre G. Armstrong, Professional Staff Member
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
               Andrew C. Dockham, Minority Chief Counsel
                 Sarah Beth Groshart, Minority Counsel
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk


















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Begich...............................................     1
Prepared statements:
    Senator Begich...............................................     7

                               WITNESSES
                        Tuesday, October 8, 2013

Hon. Eleanor Holmes Norton, a Representative in Congress from the 
  District of Columbia...........................................     2
William W. Nooter, to be an Associate Judge, Superior Court of 
  the District of Columbia
    Testimony....................................................     3
    Prepared statement...........................................     9
    Biographical and financial information.......................    10
Statement for the Record from Paul Strauss, U.S. Shadow Senator 
  for the District of Columbia...................................    28

 
                             NOMINATION OF
                           WILLIAM W. NOOTER

                              ----------                              


                        TUESDAY, OCTOBER 8, 2013

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:04 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mark Begich, 
presiding.
    Present: Senator Begich.

              OPENING STATEMENT OF SENATOR BEGICH

    Senator Begich. One thing I will try to do is I am going to 
make this painless because I believe you are highly qualified.
    Again, we are here to consider the nomination of William 
Nooter to be Associate Judge of the Superior Court of the 
District Columbia. We welcome you.
    I am also pleased to have Congresswoman Norton here again. 
Thank you very much for being here, and we appreciate your 
attendance.
    I would also like to extend a warm welcome to your family 
in attendance. I know without your family you would not be able 
to do this job. I know exactly how that is. And so thank you to 
them for being here.
    The Committee consistently receives excellent candidates 
nominated by the President and recommended by the non-partisan 
District of Columbia Judicial Nomination Commission. This 
process is critical to ensuring we have the candidates who are 
experienced and have the appropriate temperament for this 
position.
    As we know, judges have critically important duties in our 
society. Judges must uphold and interpret the law, resolve 
disputes equitably, and protect the rights and liberties of our 
citizens.
    If confirmed, I trust you will fulfill these 
responsibilities with respect, character and deference 
befitting the Court.
    As many of you already know, Judge Nooter currently serves 
as Magistrate Judge on the Superior Court of the District of 
Columbia. Since his appointment in 2000, he has served in the 
Criminal and Civil Divisions, Domestic Violence, and the Family 
Courts. He is currently the presiding Magistrate Judge and 
serves on the Chief Judge's Judicial Leadership Team.
    Prior to his appointment to the court, he worked at the law 
firm of Jordan, Coyne & Savits from 1989 to 2000 and served as 
a trial attorney with the Office of the Attorney General for 
the District of Columbia from 1982 to 1989.
    Judge Nooter, I have reviewed your biographical 
questionnaire and believe you are well qualified to serve as 
Associate Judge for the Superior Court of the District of 
Columbia. You have a distinguished career and I honestly thank 
you for your willingness to participate and serve.
    Before I go on, let me ask, if I can, Congresswoman 
Norton--again thank you for joining us. I know you have some 
remarks. Feel free to share them with the Committee.
    We will also include for the record your written comments.

      TESTIMONY OF THE HONORABLE ELEANOR HOLMES NORTON, A 
    REPRESENTATIVE IN CONGRESS FROM THE DISTRICT OF COLUMBIA

    Ms. Holmes Norton. Thank you very much, Mr. Chairman, for 
accommodating Judge Nooter and I during this period when you 
may not even have all of your Committee staff here.
    But today, we have a particularly strong candidate. I will 
be equally brief. You have before you the presiding Magistrate 
Judge, who brings the kind of experience in the law that I 
believe prepares him well to be an Associate Judge of our 
Superior Court in the District of Columbia, including having 
clerked for this very court when he graduated with honors from 
George Washington University Law School.
    He has been, of course, in the general practice of law, but 
he has worked throughout the justice system in the District of 
Columbia in what was then called the Office of Corporation 
Counsel, now Attorney General. He has had 30 years of courtroom 
experience. That is what you look for when you are dealing with 
a trial court. And I certainly think his extensive experience 
will serve him well, it will serve the court well, and it will 
serve the people of the District of Columbia well, should the 
Senate choose to confirm him.
    I am here this afternoon to strongly recommend that this 
committee recommend his confirmation to the full Senate.
    Thank you very much for receiving us today, Mr. Chairman.
    Senator Begich. Thank you very much, Congresswoman.
    Our Committee rules require that the witness at a 
nomination give their testimony under oath so therefore, I ask 
you to please stand and raise your right hand.
    Do you swear that the testimony you are about to give this 
Committee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Judge Nooter. I do.
    Senator Begich. Thank you very much. Please have a seat and 
go ahead and give us your opening statement and then I do have 
a couple of quick questions.

TESTIMONY OF WILLIAM W. NOOTER,\1\ NOMINATED TO BE AN ASSOCIATE 
       JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Judge Nooter. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Nooter appears in the Appendix on 
page 9.
---------------------------------------------------------------------------
    Mr. Chairman and Members of the Committee, thank you for 
this opportunity to appear before you as a nominee for a 
position as an Associate Judge in the District of Columbia 
Superior Court.
    I am grateful to the Judicial Nomination Commission and its 
chair, Judge Emmet Sullivan--who is here--for recommending me 
to the White House. And I am grateful to the President for 
nominating me to this position.
    Thank you, Congresswoman Norton, for your kind words in 
introducing me this afternoon.
    I would also like to thank the Committee and its staff for 
handling this process so expeditiously, despite all the other 
pressing matters pending before the Senate.
    I would like to acknowledge and thank Chief Judge Lee F. 
Satterfield for his support and leadership.
    I also want to recognize my wife, Elissa Free, my father, 
Robert H. Nooter who I do not know if he made it yet but he was 
planning to make it here--my brother, Robert I. Nooter and his 
wife Barbara. My nephew, Daniel Nooter, is here. And my staff, 
Denine Murray and Thomas Kinney, and other friends and 
colleagues who have taken the time to be here today.
    My daughter, Amanda--she attends college in Iowa--and my 
mother, Nancy Nooter, and my other siblings could not be here, 
but thanks to the wonders of modern technology, they can watch 
the re-runs on your Web site.
    One other person who I would like to introduce is Damian 
Miller. He is a young man with whom I became acquainted in the 
Family Court who has successfully emancipated from the foster 
care system. He not only made the Dean's List at Hampton 
University, but he is now the Special Assistant to the Director 
of the Child and Family Services Agency, the District of 
Columbia's child welfare agency. I am so pleased that he can be 
here today. There he is. Thank you, Damian.
    I was born in St. Louis, Missouri, but landed in 
Washington, DC. as a teenager and have never left. My legal 
career of over 30 years has been spent primarily in D.C. 
Superior Court, first as a law student attorney and a judicial 
law clerk for Hon. Tim Murphy, then as a trial attorney with 
the Office of the Corporation Counsel, in private practice with 
Jordan, Coyne & Savits, and finally as a Magistrate Judge.
    The length and breadth of my practice, as a prosecutor, 
defense attorney, civil practitioner in both government and 
private practice, and my 13 years as a judicial officer have 
well prepared me to take on the additional responsibilities of 
an Associate Judge.
    I have had the opportunity to serve on many court 
committees and to take on leadership roles within the Court, 
which have only deepened my love and respect for this vital 
institution that administers justice to the citizens of our 
city. I would be greatly honored to continue to serve the 
Superior Court and the citizens of the District of Columbia as 
an Associate Judge, if confirmed.
    Thank you again for considering my nomination and I look 
forward to answering any questions you may have.
    Senator Begich. Thank you very much.
    You are going to be in the fastest hearing in Washington, 
DC. [Laughter.]
    I just have two quick questions for you. I have reviewed 
your resume, your information, all of the history of your work. 
And I have to say you are clearly highly qualified, especially 
because of the organization that recommended you. We have a 
similar system, as you may know, in Alaska, an independent 
judicial process, which recommends people for the Governor to 
appoint to certain seats. It really makes the difference. It 
creates quality candidates versus political candidates. I think 
it makes our judicial system better because of that.
    So thank you, for one, being here.
    Second, my first question--and this is one that is more of 
a general question--why do you want to take on this position?
    Judge Nooter. Well, I have been in the role of a judicial 
officer for 13 years now, as a Magistrate Judge. And I know 
that is the role in the legal system I want to continue to be 
in for the rest of my career.
    I have found that I have been able to do, I think, a good 
job because of my prior experience as a trial lawyer and the 
abilities I have developed as a Magistrate Judge to handle 
calendars, handle many different kinds of cases. And this has 
been an extremely rewarding experience for me.
    So I really just want to continue to serve the Court and 
the community by taking on additional responsibilities that are 
assignments that Associate Judges have. That would include jury 
trials. One thing Magistrate Judges, by statute, do not handle 
are jury trials. So it would include quite a number of 
different opportunities for that and for other assignments, 
which I would look forward to.
    Senator Begich. What do you think your biggest challenge is 
going to be in this new position?
    Judge Nooter. Well, I am very familiar with the court 
system itself. Having worked there for the past 13 years, 
having practiced there for quite a few years before that. So I 
know the players, I know the judges, I know the staff.
    Going into any new assignment always involves a certain 
amount of homework and learning the specific law that applies 
to that assignment. Some areas of the law I am more familiar 
with. I practiced as a civil practitioner for 14 years, so 
there would be less of a learning curve there.
    I have not been practicing as a criminal lawyer for quite a 
few years, although I have sat in some criminal assignments, 
arraignment court and preliminary hearings and that sort of 
thing. There would be more to learn there for me, to catch up 
on the latest legal rulings in that area.
    And then, I think while I am very much looking forward, if 
I get confirmed, to presiding over jury trials, since that is 
something I have not done in a while, I would need to just come 
up to speed with the latest practices on handling that.
    So there would be learning curves, really, to any new 
assignment. Our court is very fortunate with all of the 
training opportunities it offers all of its judges, Magistrate 
Judges and Associate Judges. We all get training prior to being 
assigned to any new calendar, in that particular assignment.
    If I come aboard as a new Associate Judge, I will get even 
more broad training to help me adjust to the new role, and to 
learn some of the differences between what I have been doing 
and what I will be doing in that position.
    Senator Begich. I said I only have two questions, but I 
have one more. This is just from a non-lawyer, that is me. I 
have represented myself in court in Alaska a couple of times. I 
have apartments so I dealt with Forcible Entry and Detainer 
actions (FEDs). I know how judges handle people like me, 
sometimes they are not sure how to handle people like me 
because I am not an attorney. But those that come, and 
especially you will face that, people come in front of you that 
are not attorneys but represent themselves or attempt to 
represent their interests.
    How will you manage that, at the same time keeping an 
impartial view to the case that may be in front of you but 
trying to make sure they are availing themselves to their 
proper resources? Maybe they do not want to get an attorney.
    Judge Nooter. Thank you, Mr. Chairman. That is an excellent 
question because it has been part of our strategic plan and 
continues to be part of the Court's strategic plan to improve 
access to justice. That includes, certainly, self-represented 
parties coming into court. D.C. Superior Court has many 
calendar assignments where there are unrepresented parties. One 
is small claims court, where many of the parties are 
unrepresented, mostly on both sides. But there are attorneys 
who appear there also.
    I am currently handling a civil assignment that also 
involves a lot of unrepresented parties. It is a collections 
and subrogation assignment.
    So in that case, we generally have a lawyer on the side of 
the plaintiffs and no lawyer on the side of the defendants, 
which is the most common scenario.
    So I have been dealing with that issue in that assignment. 
Our recently modified Code of Judicial Ethics clarifies for 
judges their role in this, which is that it is appropriate to 
make sure that self-represented litigants have some 
understanding of the proceedings before them. And it is 
incumbent upon judges in those situations to take some time to 
explain what the procedure is, what the status of the case is, 
and what is expected of the parties going forward.
    Certainly, in Small Claims Court, before you go to trial 
you explain the whole trial process to the parties so that they 
can keep their presentations within those limitations. But it 
is more relaxed in Small Claims Court than it is in my court, 
the Collections Court, which follows the regular civil rules.
    Senator Begich. It is pretty cut and dried in Collections.
    Judge Nooter. Well, not necessarily, but the parties do 
have to follow the rules more strictly. In Small Claims Court, 
the rules allow you to interpret them more liberally.
    But the Court has been developing legal resources for 
parties in circumstances where there is really no funding for 
this. The Court has collaborated with local bar associations 
and some local legal services organizations to provide legal 
resource centers in the courthouse. They are not there every 
day, but they are there some days, where parties can go in and 
get legal advice about their case.
    And this has proven very helpful so I always refer 
unrepresented parties to those resource centers that are 
available, so that they can get it--because the line is that 
the Judge really cannot give legal advice to a party who is not 
represented and cannot go so far as to give an unfair advantage 
to an unrepresented party. So there is a balancing act that 
takes place in the courtroom. But these additional resources 
have been very helpful.
    Senator Begich. Very good.
    I have three yes or no questions, these are the required 
questions. So let me go ahead and work through those, if I can.
    Is there anything that you are aware of in your background 
that might present a conflict of interest with the duties of 
the office to which you have been nominated? It is a yes or no.
    Judge Nooter. No, Mr. Chairman.
    Senator Begich. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of office to which 
you have been nominated?
    Judge Nooter. No, Mr. Chairman.
    Senator Begich. Do you know of any reason, personal or 
otherwise, that would in anyway prevent you from serving the 
full term for the office in which you have been nominated?
    Judge Nooter. No, Mr. Chairman.
    Senator Begich. Very good. Let me just check one thing 
here. [Pause.]
    The hearing record will remain open until 5 p.m. tomorrow, 
October 9, for the submission of statements and questions for 
the record.
    The hearing, at this time, is now adjourned. Thank you and 
congratulations.
    [Whereupon, at 3:22 p.m., the Committee was adjourned.]

















                            A P P E N D I X

                              ----------                              



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
